          Office of Audits
          Office of Inspector General
          U.S. General Services Administration




           Audit of the Digitization
           of the Federal Acquisition
           Service’s Multiple Award
           Schedule Contract Files
           Report Number A120028/Q/A/P12010
           September 26, 2012




A120028/Q/A/P12010
                    Office of Audits
                    Office of Inspector General
                    U.S. General Services Administration


                                       REPORT ABSTRACT

                             Audit of the Digitization of the Federal Acquisition Service's Multiple
OBJECTIVES
                             Award Schedule Contract Files
 The objectives of the
                             A120028/Q/A/P12010
 audit were to determine:
                             September 26, 2012
 (1) if the Federal
 Acquisition Service         WHAT WE FOUND
 (FAS) has established a
 comprehensive plan to       We identified the following during our audit:
 digitize Multiple Award     Finding 1 – The lack of a comprehensive plan led to delays in the MAS
 Schedule (MAS)              contract file digitization effort.
 contract files in support
                             Finding 2 – Issues with contract digitization within the Office of IT
 of its commitment to
                             Schedule Programs hindered progress and wasted resources.
 achieve an end-to-end
 electronic contracting      Finding 3 – System limitations reduce the functionality of the electronic
 environment and (2)         contract file.
 what the impact is if       WHAT WE RECOMMEND
 such a plan is not in
                             Given that FAS is scheduled to relocate to Central Office in May 2013
 place.
                             and the digitization effort is due to be completed at the end of fiscal
                             year 2013, FAS would have limited time to implement an action plan to
                             address any recommendations we would make. Therefore, we are not
                             making formal recommendations at this time. Instead, we are offering
                             suggestions which may assist FAS in addressing the findings outlined
                             above.
                             MANAGEMENT COMMENTS
                             In response to our report, management describes actions FAS has
                             taken and will take to address our findings. See Appendix C for
                             management comments.


Acquisition Programs
Audit Office
241 18th Street South
Suite 607
Arlington, VA 22202
(703) 603-0189



     A120028/Q/A/P12010                        i
                   Office of Audits
                   Office of Inspector General
                   U.S. General Services Administration



 DATE:             September 26, 2012

 TO:               Mary A. Davie
                   Acting Commissioner, Federal Acquisition Service (Q)

 FROM:             Lindsay S. Mough
                   Audit Manager, Acquisition Programs Audit Office (JA-A)

 SUBJECT:          Audit of the Digitization of the Federal Acquisition Service's Multiple
                   Award Schedule Contract Files
                   A120028/Q/A/P12010

This report presents the results of our audit of the digitization of the Federal Acquisition
Service’s Multiple Award Schedule contract files. Our findings are summarized in the
Report Abstract. Given that we are not making any formal recommendations, you are
not required to perform audit resolution procedures.

Your written comments to the draft report are included in Appendix C of this report.

If you have any questions regarding this report, please contact me or any member of
the audit team at the following:

Lindsay S. Mough        Audit Manager            lindsay.mough@gsaig.gov     (703) 603-0269
Victoria Nguyen         Auditor-In-Charge        victoria.nguyen@gsaig.gov   (703) 603-0267

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this audit.




A120028/Q/A/P12010                          ii
Table of Contents
Introduction .............................................................................................................. 1

Results
Finding 1 – The lack of a comprehensive plan led to delays in the MAS contract file
            digitization effort ...................................................................................... 2
Finding 2 – Issues with contract digitization within the Office of IT Schedule
            Programs hindered progress and wasted resources ............................... 2
Finding 3 – System limitations reduce the functionality of the electronic
            contract file .............................................................................................. 5
Management Comments ............................................................................................ 5
Conclusion................................................................................................................ 6

Appendixes
Appendix A – Purpose, Scope, and Methodology ............................................. A-1
Appendix B – Digitization Process ..................................................................... B-1
Appendix C – Management Comments .............................................................. C-1
Appendix D – Report Distribution ....................................................................... D-1




A120028/Q/A/P12010                                        iii
Introduction
As part of its push towards green business practices, the General Services
Administration’s (GSA) Federal Acquisition Service (FAS) established a goal of
achieving an end-to-end electronic contracting environment. This effort includes all
contract types, and encompasses various FAS initiatives. One initiative is the
digitization of hard copy contract files in the Multiple Award Schedule (MAS) program,
which covers close to 20,000 contracts with terms up to 20 years.

FAS’s file digitization coincides with the plan to consolidate the majority of GSA
functions in the Washington, D.C. metropolitan area into GSA’s Central Office building.
The consolidation will put space in the building at a premium. FAS’s planned move date
of May 2013 only expedites the need to digitize given that storage for paper contract
files will not be available in the Central Office building.

The FAS digitization process includes the following stages: (1) audit, (2) assembly,
(3) scanning, (4) quality control, (5) quality assurance, and (6) acceptance. 1 See
Appendix B – Digitization Process for a detailed flowchart of the digitization process.

To facilitate the digitization of MAS contract files and implement the use of the electronic
contract file, FAS’s Office of the Chief Information Officer developed the Enterprise
Content Management Solution (ECMS) as a repository for the electronic contract files.
Contract documents from other GSA internal applications, such as eOffer and eMod,
automatically migrate into ECMS. Users can then view the electronic contract files
stored in ECMS using the Electronic Contract File Web Interface viewer (ECFv).

The objectives of the audit were to determine: (1) if the Federal Acquisition Service has
established a comprehensive plan to digitize Multiple Award Schedule contract files in
support of its commitment to achieve an end-to-end electronic contracting environment
and (2) what the impact is if such a plan is not in place.

See Appendix A – Purpose, Scope, and Methodology for additional details.

Given that FAS is scheduled to relocate to Central Office in May 2013 and the
digitization effort is not due to be completed until the end of fiscal year 2013, FAS would
have limited time to implement an action plan to address any recommendations we
would make. Therefore, we are not making formal recommendations at this time.
Instead, we are offering suggestions which may assist FAS in addressing the findings
discussed in this report.




1
 Acceptance refers to the formal action of approving the electronic contract file as the official contract file
of record and ensures that the electronic contract file is an accurate, complete, and clear representation
of the original.


A120028/Q/A/P12010                                1
Results
FAS did not establish a comprehensive plan to digitize MAS contract files, contributing
to unnecessary delays and wasted resources. This largely impacted the Office of IT
Schedule Programs (IT Center) since it manages over 5,000 contracts and is scheduled
to move to Central Office in May 2013 where storage for hard copy contract files will not
be available. In addition, we noted several issues with the electronic contract file
application. Although the audit objectives focus on digitization, these issues warrant the
attention of FAS management given the effect on the functionality of the electronic
contract file and ultimately, on end-to-end electronic contracting going forward.

Finding 1 – The lack of a comprehensive plan led to delays in the MAS contract
file digitization effort.

FAS did not establish a comprehensive plan to digitize MAS contract files, which
contributed to delays in deciding on a scanning policy and putting a solution in place. A
large scale project such as digitization should ultimately have one group responsible for
developing a strategy and overseeing the entire project.

While FAS implemented a pilot for the electronic contract file, there was no clear
direction for the effort as a whole. At the beginning of the pilot in March 2010, FAS
planned to scan all active MAS contract files. However, because there was not one
group dedicated to managing the digitization effort, it took FAS more than a year to
identify the challenges associated with trying to scan every document. Ultimately in
November 2011, FAS decided to scan only the documents related to the most recent
option period. To facilitate this new strategy, and in consideration of the impending
move, FAS plans to award a blanket purchase agreement to include document storage
and retrieval services for offices affected by the move. However, the award has been
stalled several times and as of June 2012 the statement of work was still being
developed.

We suggest FAS award this blanket purchase agreement with sufficient time prior to the
move and in accordance with the facility standards for records storage facilities outlined
in the U.S. Code of Federal Regulations.

Finding 2 – Issues with contract digitization within the Office of IT Schedule
Programs hindered progress and wasted resources.

Lack of progress in digitizing contract files

The IT Center has not made substantial progress in digitizing contract files, negatively
affecting its readiness to move. The IT Center is scheduled to move to Central Office in
May 2013, where storage space for contract files will not be available.




A120028/Q/A/P12010                      2
Despite the involvement of the IT Center in the 2010 digitization pilot, only 489 of its
over 5,000 2 contracts have been scanned as of June 2012. The IT Center
acknowledged that significant turnover in the portfolio and multiple changes to its
scanning policy contributed to delays in digitizing the contract files. Further, the lack of a
comprehensive plan for digitization created challenges outside the center’s control. The
IT Center indicated that several different plans for digitization were communicated by
different components within FAS, but that there was not a consistent message. This led
to the IT Center further delaying its digitization efforts in anticipation of more definitive
plans being provided.

Eventually FAS realized that digitizing all contract file documents is not only time
consuming and cost prohibitive, but also unnecessary. Only contract actions for the
most recent option period exercised are needed for contract administration; therefore,
while documents from the previous option period need to be retained, digitizing them is
not necessary. The Office of Acquisition Management issued updated policy on the
implementation of the electronic contract file in March 2012. This policy states that, at a
maximum, acquisition centers shall only digitize information that is needed to administer
the contract; the remainder of paper files can be stored at an off-center site for retrieval.
Currently, the IT Center’s policy is to scan the entire contract file, which is not in line
with this updated policy. However, the IT Center is hesitant to change its scanning
policy without a solution in place, such as a blanket purchase agreement for storage
and retrieval (see Finding 1).

In conjunction with our suggestion for Finding 1, we suggest the IT Center update its
scanning selection criteria to only digitize contract files in accordance with the updated
policy issued by the Office of Acquisition Management.

Lack of progress in accepting contract files

The IT Center’s procedures did not enable contracting officers to accept digitized
contract files in a timely manner, creating a backlog of work. FAS Instructional Letter
2010-07 requires contracting officers to accept the electronic contract file in ECFv no
later than 90 days after the electronic file enters the quality assurance stage.

Despite this requirement, contracting officers in the IT Center had only accepted two
digitized contract files as of April 2012. This lack of progress could be attributed to the
IT Center’s standard operating procedures, which instruct the contractor3 not to send
the contract files to contracting officers for acceptance. When we brought this to
management’s attention, they began allowing the contracting officers to accept the
electronic contract files and as of June 2012 had accepted 146 contract files.


2
  The IT Center recognized that scanning contracts that were in their last option period or with little or no
sales was not a good use of resources. Subsequently, the IT Center implemented a scanning policy to
reduce the number of contract files to scan. As of April 2012, the IT Center estimated that 3,400 contracts
remain to be scanned under the new policy, although we could not verify this number.
3
  The IT Center awarded a task order to a contractor to perform quality assurance.


A120028/Q/A/P12010                               3
While this change in procedure will help increase the number of accepted contract files
in the IT Center, there is still a backlog of digitized contract files that need to be
accepted prior to the May 2013 move. This backlog is in addition to the files not yet
digitized. We recognize it is a challenge for contracting officers to accept the electronic
contract file as the official file of record in addition to completing their daily workload.
However, we found that other acquisition centers prioritized the acceptance of digitized
contract files by creating internal working groups that dedicated a specific time to
accepting contract files.

We suggest the IT Center continue to make the acceptance of digitized contracts a
priority and identify a process to assist the contracting officers in managing the
acceptance of digitized contract files.

Duplication of efforts in digitization process

The IT Center wasted resources by duplicating digitization efforts. FAS Instructional
Letter 2010-07 outlines the procedures to follow as part of the digitization process. Two
of these procedures are quality control and quality assurance. Quality control is the
action taken to ensure that the digitized documents are clear and readable. Quality
assurance is the process of validating that the electronic file accurately represents the
contents of the paper file and includes steps that a contractor cannot complete.

The IT Center uses a contractor to perform quality control during the scanning process
and then the contracting officers perform quality assurance after the contract file is
scanned. Despite this, the IT Center awarded a task order4 to another contractor to
perform quality assurance. As of February 2012, the IT Center spent $355,954 under
this task order for a function that should have been completed in-house. In addition, the
task order was out of scope since the underlying blanket purchase agreement does not
include quality assurance and, in fact, describes this task as a function internal to the
government.

While management told us that the task order was for quality control, not quality
assurance, the language in the task order and the process outlined in the IT Center’s
standard operating procedures suggests otherwise. Nevertheless, after bringing this to
management’s attention, the IT Center issued a modification in June 2012 to change
the language in the task order from quality assurance to quality control.

Although the IT Center modified the current task order, we remain concerned that there
is a duplication of efforts between the two contractors conducting quality control. We
suggest that the IT Center reevaluate its digitization needs and determine whether the
current contractor functions are still necessary.



4
  This task order was awarded against a blanket purchase agreement for digital management support
services issued by the Assisted Acquisition Services Division within the Northeast and Caribbean Region
in support of the FAS digitization effort.


A120028/Q/A/P12010                            4
Finding 3 – System limitations reduce the functionality of the electronic contract
file.

There are several issues with the functionality of the electronic contract file application
that negatively affect the integrity of the electronic contract file as the official file of
record. In accordance with Federal Acquisition Regulation 4.802(c), contract files must
be maintained at organizational levels that ensure the effective documentation of
contract actions and ready accessibility to principal users. However, the ECFv
application does not effectively capture contract actions, and contract actions are not
always readily accessible to principal users due to limitations within the ECMS system.
Specifically:

      •   The unfiled tab in the electronic contract file is an unorganized data dump for
          contract documents, making it difficult to find documents within the application
          and placing a major burden on contracting officers. Documents that automatically
          migrate from internal applications populate into the unfiled tab if they are not
          labeled in accordance with internal guidance. In particular, this is a problem with
          contractor-uploaded documents as they are often improperly categorized. Due to
          system limitations, the contracting officer is unable to change the category prior
          to the documents migrating to the unfiled tab and is therefore required to move
          each document to the correct tab individually.
      •   The modification number in ECFv does not always match the modification
          number on the Standard Form 30, 5 making modifications in the electronic
          contract file difficult to identify. In some files, the modification number populated
          in ECFv is an arbitrary number assigned to that modification rather than the
          number assigned to the modification on the Standard Form 30.
      •   The electronic contract file may not include all contract actions and therefore is
          not complete. Documents from GSA’s other internal applications do not always
          transfer to ECFv or are significantly delayed in migrating to ECFv.

Although FAS conducted a digitization pilot, the focus was on scanning and not on the
use of an electronic contract file. We found that many contracting officers are not using
the ECFv application to view the contract file, as the application does not have the
functionality and ease of use of other internal applications. Ultimately, the lack of a
comprehensive plan that took into consideration end-to-end electronic contracting,
negatively affected contracting officers’ ability to effectively use the ECFv application.

We suggest that FAS evaluate ECFv’s functionality and make the application’s ease of
use a priority.

Management Comments

In response to our report, management describes actions FAS has taken and will take
to address our findings. See Appendix C for management comments.

5
    The Standard Form 30 is the official document used to modify a contract.


A120028/Q/A/P12010                                5
Conclusion
FAS did not establish a comprehensive plan to digitize MAS contract files. Specifically,
FAS did not assign one group to be responsible for overseeing and coordinating the
digitization effort. Additionally, the IT Center has only digitized and accepted a limited
number of contract files despite the impending move to Central Office. Also, due to
system limitations, the electronic contract file lacks some functionality and is not easy to
use.




A120028/Q/A/P12010                       6
Appendix A – Purpose, Scope, and Methodology
Purpose

The General Services Administration’s Office of Inspector General included this audit in
its Fiscal Year 2012 Audit Plan.

Scope

The scope of the audit is limited to reviewing the digitization efforts associated with
Multiple Award Schedule (MAS) contract files within the Federal Acquisition Service
(FAS).

Methodology

To accomplish our objectives, we:
   • Judgmentally selected the following acquisition centers for site visits:
          o National Administrative Services and Office Supplies Acquisition Center
          o Integrated Workplace Acquisition Center
          o Facilities Maintenance and Hardware Acquisition Center
          o Greater Southwest Acquisition Center
          o Management Services Center
          o Office of IT Schedule Programs;
   • Randomly sampled 10 accepted contract files from each of the above acquisition
      centers’ universe of scanned files, except the Office of IT Schedule Programs; 6
   • Met with selected acquisition personnel including, but not limited to, acquisition
      center directors, branch chiefs, contracting officers, contract specialists, and
      digitization project managers;
   • Conducted a walk-through of scanning centers;
   • Reviewed acquisition centers’ processes for quality assurance;
   • Compared the sampled electronic contract files in the Electronic Contract File
      viewer (ECFv) to the hardcopy contract files;
   • Reviewed the digitization blanket purchase agreement including related task
      orders and standard operating procedures, where applicable;
   • Reviewed criteria from the U.S. Code of Federal Regulations, Federal Acquisition
      Regulation, General Services Administration Acquisition Manual, National
      Archives and Records Administration, FAS instructional letters and other
      directives;
   • Reviewed FAS digitization plans, presentations, and the ECFv user guide;
   • Held discussions with officials from FAS’s Office of Acquisition Management;
      Office of the Chief Information Officer; Office of Travel, Motor Vehicle and Card


6
 We only reviewed two accepted contract files within the Office of IT Schedule Programs as only two
contract files had been accepted at the time of our audit.


A120028/Q/A/P12010                         A-1
Appendix A – Purpose, Scope, and Methodology (cont.)
       Services; Office of General Supplies and Services; and Office of Strategy
       Management; and
   •   Evaluated the implications of the 1800 F Transformation on FAS’s contract file
       digitization effort for acquisition centers with MAS contract files in the
       Washington, D.C. area.

We conducted this performance audit between October 2011 and June 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

Internal Controls

The examination of internal controls was limited to the digitization of MAS contract files
within FAS. Thus, our evaluation of internal controls was limited to items discussed in
the Results section of this report.




A120028/Q/A/P12010                     A-2
Appendix B – Digitization Process


                                                 Audit
  The Audit stage is conducted to produce a list containing the name of each document in the file and
                              note any documents that may be missing.




                                                 Assembly
   The Assembly stage refers to the use of the Barcode Assisted Document Indexing (BADI), which
   was developed in accordance with the Contract Tab Advisory Guide. Each paper document in the
  contract file must be identified using a BADI sheet to ensure that each document is named and filed
    correctly in the Electronic Contract File viewer (ECFv) after the file is sent through the scanner.




                                              Scanning
    The Scanning stage is the physical action of inserting the prepared paper file into the scanner.




                                              Quality Control
     Quality Control is the action that is taken to ensure that the digitized documents are clear and
             readable in accordance with Federal Acquisition Regulation Subpart 4.805(a).




                                           Quality Assurance
  Quality Assurance (QA) is a critical stage in the digitization process. QA is the process of validating
   that the paper file was scanned in its entirety and that the electronic file accurately represents the
      contents of the paper file. The electronic contract file is not official until QA is complete and
                                           acceptance occurs.




                                                Acceptance
  Acceptance is the formal action of approving the electronic contract file as the official contract file of
     record. This is performed in the ECFv and is executed by selecting the "accept" button. The
     contracting officer is responsible for ensuring that the electronic contract file is an "accurate,
   complete, and clear" representation of the original file. Only the contracting officer can accept an
                             electronic contract file as the official file of record.



A120028/Q/A/P12010                              B-1
Appendix C – Management Comments




A120028/Q/A/P12010    C-1
Appendix C – Management Comments (cont.)




A120028/Q/A/P12010     C-2
Appendix C – Management Comments (cont.)




A120028/Q/A/P12010     C-3
Appendix C – Management Comments (cont.)




A120028/Q/A/P12010     C-4
Appendix C – Management Comments (cont.)




A120028/Q/A/P12010     C-5
Appendix C – Management Comments (cont.)




A120028/Q/A/P12010     C-6
Appendix C – Management Comments (cont.)




A120028/Q/A/P12010     C-7
Appendix C – Management Comments (cont.)




A120028/Q/A/P12010     C-8
Appendix C – Management Comments (cont.)




A120028/Q/A/P12010     C-9
Appendix C – Management Comments (cont.)




A120028/Q/A/P12010     C-10
Appendix C – Management Comments (cont.)




A120028/Q/A/P12010     C-11
Appendix C – Management Comments (cont.)




A120028/Q/A/P12010     C-12
Appendix C – Management Comments (cont.)




A120028/Q/A/P12010     C-13
Appendix C – Management Comments (cont.)




A120028/Q/A/P12010     C-14
Appendix C – Management Comments (cont.)




A120028/Q/A/P12010     C-15
Appendix C – Management Comments (cont.)




A120028/Q/A/P12010     C-16
Appendix C – Management Comments (cont.)




A120028/Q/A/P12010     C-17
Appendix C – Management Comments (cont.)




A120028/Q/A/P12010     C-18
Appendix C – Management Comments (cont.)




A120028/Q/A/P12010     C-19
Appendix C – Management Comments (cont.)




A120028/Q/A/P12010     C-20
Appendix C – Management Comments (cont.)




A120028/Q/A/P12010     C-21
Appendix C – Management Comments (cont.)




A120028/Q/A/P12010     C-22
Appendix C – Management Comments (cont.)




A120028/Q/A/P12010     C-23
Appendix C – Management Comments (cont.)




A120028/Q/A/P12010     C-24
Appendix C – Management Comments (cont.)




A120028/Q/A/P12010     C-25
Appendix C – Management Comments (cont.)




A120028/Q/A/P12010     C-26
Appendix C – Management Comments (cont.)




A120028/Q/A/P12010     C-27
Appendix D – Report Distribution

Acting Commissioner, Federal Acquisition Service (Q)

Deputy Commissioner, Federal Acquisition Service (Q1)

Chief of Staff, Federal Acquisition Service (Q0A)

Division Director, GAO/IG Audit Response Division (H1C)

Director, Business Analytics and Consulting Division (QB0A)

Assistant IG for Auditing (JA)

Deputy Assistant IG for Investigations (JID)

Director, Audit Planning, Policy, and Operations Staff (JAO)




A120028/Q/A/P12010                     D-1
